                            U.S. Department of Agriculture

                               Office of Inspector General
                                          Northeast Region




                 Audit Report

Implementation of the Federal Research Misconduct
    Policy in the U.S. Department of Agriculture




                                  Report No. 50099-11-Hy
                                              March 2005
                         UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                       Washington, D.C. 20250




March 31, 2005

REPLY TO
ATTN OF:       50099-11-Hy

SUBJECT:       Implementation of the Federal Research Misconduct Policy
               in the U.S. Department of Agriculture

TO:            Joseph J. Jen
               Under Secretary
               Research, Education and Economics


This report presents the results of the subject audit. Your March 25, 2005, response to the draft
report is included as exhibit A with excerpts and the Office of Inspector General’s position
incorporated in the relevant Findings and Recommendations sections of the report.

Based on your response, we have accepted management decision on Recommendations 1 and 4.
Follow your internal agency procedures in forwarding final action correspondence to the Office
of the Chief Financial Officer. Final action on the management decisions should be completed
within 1 year of the date of this report to preclude being listed in the Secretary’s Management
Report. The information needed to reach management decision on Recommendations 2, 3, and 5
is described in the Office of Inspector General’s Position sections of the report.

Please furnish the information needed to reach management decisions on the three remaining
recommendations within 60 days. Please note that Departmental Regulation 1720-1 requires a
management decision for all recommendations within a maximum of 6 months from the date of
report issuance, and final action to be taken within 1 year of each management decision.

We appreciate the courtesies and cooperation extended to us by members of your staff during the
review.


      /s/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit
Executive Summary
Implementation of the Federal Research Misconduct Policy in the United States
Department of Agriculture (Audit Report No. 50099-11-Hy)

Results in Brief   In fiscal year (FY) 2004, the U.S. Department of Agriculture (USDA) was
                   authorized to spend nearly $2.1 billion to conduct or support research and
                   development. The Department provides funding for studies as diverse as
                   human nutrition to new crop technologies. Because research plays a vital
                   role in the Department’s mission, ensuring its integrity must be a top priority.
                   The objectives of our review were to determine whether (1) the Department
                   had finalized and implemented a Department-wide research misconduct
                   policy that was in compliance with the policy established by the Office of
                   Science and Technology (OSTP) or had monitored its agencies to ensure that
                   individual agency policies complied with the Federal Policy on Research
                   Misconduct (OSTP Policy), and (2) the Department had ensured that agencies
                   provided guidance to and oversight of extramural research activities.
                   However, despite a Federal mandate to implement a research misconduct
                   policy in 2001, the Department did not develop a research misconduct policy
                   and did not coordinate an oversight process for consistently and effectively
                   applying it. As prescribed by OSTP, a research misconduct policy should
                   include:

                   •     A definition of research misconduct and the elements of a research
                         misconduct finding.
                   •     Instructions for handling research misconduct allegations and
                         adjudication, including standards for objectivity and timeliness.
                   •     Safeguards for informants and subjects of allegations.
                   •     Possible administrative actions for research misconduct findings.

                   Although USDA was required to implement the OSTP Research Misconduct
                   Policy by December 6, 2001, the Department did not assign this
                   responsibility to a specific agency or group.

                   In the absence of a Department-wide policy, the Department did not ensure
                   individual agency policies satisfy OSTP requirements or provide guidance to
                   individual agencies to develop OSTP-compliant research misconduct
                   policies. Except for the Forest Service (FS), all USDA agencies operate
                   under a patchwork of policies that do not fully comply with the OSTP
                   Research Misconduct Policy. Seven agencies, whose FY 2004 appropriations
                   for research totaled an estimated $733 million, have no official research
                   misconduct policies; among them is the Cooperative State Research,
                   Education, and Extension Service (CSREES), which disburses the most
                   extramural research dollars. Another agency, Agricultural Research Service,
                   was appropriated over $1 billion in FY 2004 and has a research misconduct
                   policy that is not in compliance with OSTP requirements. Of the agencies
USDA/OIG-A/50099-11-Hy                                                                          ii
                  that receive major research funding, only the FS, which received
                  $299 million for research in FY 2004, has an OSTP-compliant research
                  misconduct policy in place.

                  Likewise, the Department does not have a Department-wide research
                  misconduct policy that addresses extramural research misconduct referrals,
                  allegations, investigations, and adjudications. Nine USDA agencies do not
                  have policies that address allegations and investigations for extramural
                  research misconduct. As a result, USDA agencies rely on extramural
                  institution policies, which may not be in the Department’s and public’s best
                  interests.

                  Apart from being out of compliance with Federal law, the Department has
                  already found itself in problematic situations that reflect the need for a
                  Department-wide research misconduct policy. In a highly publicized case, a
                  graduate student at Michigan State University (MSU) pled guilty to staging a
                  burglary to conceal that he had fabricated data for a CSREES-funded study of
                  swine pneumonia. The student was ordered to pay $69,000 in restitution,
                  only a fraction of the $750,000 in USDA funds MSU received to conduct the
                  research. Although CSREES froze additional funding for the study, it is not
                  clear how the agency will reclaim the funds already expended by the
                  university. Also of concern, CSREES did not have a staff dedicated to
                  independently review MSU’s research misconduct policies or a liaison within
                  the Department to whom it could refer such a review. CSREES has no
                  assurance that the weakness in internal controls that allowed the fraudulent
                  research to remain undetected for a period of at least 2 years may not affect
                  other USDA-funded research.

                  As the MSU case demonstrates, the development of an OSTP-compliant
                  research misconduct policy (that addresses both intramural and extramural
                  research activities) would serve the Department’s and public’s best interests.
                  Until it complies with the OSTP, the Department will not be able to assess
                  the extent of fabrication, falsification, and plagiarism in USDA-funded
                  research, or consistently and fairly handle research misconduct allegations
                  once detected. Ultimately, if the Department continues to take an
                  inconsistent approach toward research misconduct, USDA’s standing in the
                  Federal research community may be at stake.

Recommendations
In Brief          We recommend that the Department develop and implement a Department-
                  wide, OSTP-compliant research misconduct policy. We also recommend that
                  the Department-wide research misconduct policy include specific instructions
                  applicable to USDA-funded research and proposals submitted for research
                  funding. The Departmental policy should address agency responsibilities to
                  oversee extramural institutions’ research misconduct policies and procedures,
                  with an emphasis on determining the institutions’ ability to adequately
USDA/OIG-A/50099-11-Hy                                                                       iii
                  resolve research misconduct allegations. The Departmental policy should
                  specify:

                  •   A requirement that extramural research institutions report all allegations
                      of research misconduct to the USDA.
                  •   Roles and responsibilities for oversight and involvement in the
                      investigation, adjudication, and recapture of funds when it is in the
                      Department’s and public’s best interests.
                  •   A contact point within the Department to coordinate and conduct
                      evaluations of the research misconduct policies of extramural research
                      organizations.
Departmental
Response          The Department generally agreed with the recommendations in our report
                  (see exhibit A). The Under Secretary for Research, Education and
                  Economics (REE) provided a consolidated response for the Department.
                  Specifically, the Department agreed that a centralized body for research
                  misconduct will be established within the Department. The Office of the
                  Undersecretary REE will be accountable for coordinating research misconduct
                  policies and procedures. Within three months of acceptance of management
                  decisions, REE will publish a Federal Register notice which accepts the OSTP
                  definition of research misconduct as the USDA definition. The notice will
                  include a statement that USDA will follow the OSTP Federal Policy by defining
                  the responsibility of USDA agencies in designing and implementing guidelines
                  for fair and timely procedures and for taking agency administrative actions as
                  they relate to research misconduct. REE will develop general guidance for the
                  investigation of research misconduct allegations and assign a person to
                  coordinate research misconduct across the USDA for both intramural and
                  extramural research. All USDA research organizations will announce, within
                  nine months of issuance of the Federal Register notice, their policies for
                  adequately resolving research misconduct allegations to include providing
                  contact information for reporting research misconduct in terms and conditions
                  applied to awards, and intramural agencies will announce, through standard
                  means to its employees, how research misconduct should be reported.


OIG Position      We agree with the actions taken and planned by the Department in response
                  to the report’s recommendations. We have accepted management decision on
                  Recommendations Nos. 1 and 4. For Recommendations Nos. 2, 3, and 5, we
                  have explained in the Findings and Recommendations section of the report
                  the actions the Department needs to take for acceptance of management
                  decision. The Department’s written response is included as exhibit A of the
                  report.




USDA/OIG-A/50099-11-Hy                                                                       iv
Table of Contents
Executive Summary ...............................................................................................................ii
Abbreviations Used in This Report......................................................................................vi
Background and Objectives..................................................................................................1
Findings and Recommendations ..........................................................................................3
   Section 1. Departmental Oversight ..................................................................................3
      Finding 1 USDA Has Not Complied With the Federal OSTP Research
                Misconduct Policy .............................................................................................3
        Recommendation No. 1.................................................................................................5
        Recommendation No. 2.................................................................................................6
   Section 2. Extramural Research.......................................................................................8
      Finding 2 USDA Has No Guidelines to Identify and Resolve Extramural Research
                Misconduct Allegations .....................................................................................8
        Recommendation No. 3...............................................................................................12
        Recommendation No. 4...............................................................................................12
        Recommendation No. 5...............................................................................................13
Scope and Methodology......................................................................................................14
Exhibit A – Departmental Response from the Research, Education and Economics....15




 USDA/OIG-A/50099-11-Hy                                                                                                         v
Abbreviations Used in This Report

AMS               Agricultural Marketing Service
APHIS             Animal and Plant Health Inspection Service
ARS               Agricultural Research Service
CSREES            Cooperative State Research, Education, and Extension Service
DHHS              Department of Health and Human Services
ERS               Economic Research Service
FAS               Foreign Agricultural Service
FR                Federal Register
FS                Forest Service
FY                Fiscal Year
GIPSA             Grain Inspection, Packers, and Stockyards Administration
MSU               Michigan State University
NASS              National Agricultural Statistics Service
NWRC              National Wildlife Research Center
OCFO              Office of the Chief Financial Officer
OGC               Office of the General Counsel
OIG               Office of Inspector General
OSTP              Office of Science and Technology Policy
OSTP Policy       Federal Policy on Research Misconduct
PAD               Planning and Accountability Division
PHS               Public Health Service
REE               Research, Education and Economics
UConn             University of Connecticut
USDA              U.S. Department of Agriculture




USDA/OIG-A/50099-11-Hy                                                           vi
Background and Objectives
Background                        Established in 1976, the Office of Science and Technology Policy (OSTP)
                                  provides scientific and technological analysis and counsel to the President
                                  with respect to major Federal policies, plans, and programs.1 OSTP works
                                  with the private sector, State and local governments, the science and higher
                                  education communities, and other nations to develop and implement sound
                                  science and technology policies.

                                  Because advances in the sciences depend on the reliability of the research
                                  record, OSTP designed the Federal Policy on Research Misconduct (OSTP
                                  Policy), issued in December 2000, to govern all federally funded research and
                                  proposals submitted for research funding. The OSTP Policy defines research
                                  misconduct and establishes basic guidelines for conducting fair and timely
                                  investigations of alleged or suspected infractions. Published in the Federal
                                  Register (FR) on December 6, 2000, the Government-wide policy allowed
                                  agencies 1 year to implement its requirements, either by regulation or another
                                  administrative mechanism.2

                                  The OSTP Policy defines research misconduct as fabrication, falsification, or
                                  plagiarism in proposing, performing, or reviewing research, or in reporting
                                  research results. A response to a research misconduct allegation consists of
                                  inquiry, investigation, and adjudication phases. According to the OSTP
                                  Policy, a finding of research misconduct requires: (1) a significant departure
                                  from accepted practices of the relevant research community, (2) misconduct
                                  that is committed intentionally, knowingly, or recklessly, and (3) proof of the
                                  allegation through a preponderance of evidence.

                                  Agency policies and procedures for both intramural and extramural research
                                  programs must conform to the OSTP Policy. When Federal agencies and
                                  research institutions share responsibility for the research process, the
                                  agencies retain ultimate oversight responsibilities. In most cases, agencies
                                  rely on the researcher’s home institution to make the initial response to a
                                  research misconduct allegation. At any time, however, the Federal agency
                                  may proceed with its own inquiry or investigation and may elect not to defer
                                  to the research institution.

                                  U.S. Department of Agriculture (USDA) agencies within each mission area3
                                  engage in or support some form of research as defined by the OSTP Policy.
                                  The policy covers all fields of science, engineering, and mathematics,
                                  including research in economics, education, linguistics, medicine,
1
    The National Science and Technology Policy, Organization, and Priorities Act of 1976 (Public Law 94-282) established OSTP within
    the Executive Office of the President.
2
    65 FR, pages 76260 – 76264.
3
    USDA mission areas headed by an Under Secretary with significant research funding include: Natural Resources and Environment;
    Farm and Foreign Agricultural Services; Research, Education and Economics; and Marketing and Regulatory Programs.
    USDA/OIG-A/50099-11-Hy                                                                                                       1
                                   psychology, social sciences, and statistics; it also applies to studies involving
                                   human or animal subjects. Our review included nine USDA agencies that
                                   perform research. The following table lists agencies along with their research
                                   budget appropriations, in millions of dollars:

                                                                                           Appropriated Research $ (Millions)
                                      Agency                                                 2003                   2004

                                      Agricultural Research Service (ARS)4                             $1,043                      $1,090
                                      Cooperative State Research,
                                       Education, and Extension Service                                   603                         613
                                       (CSREES)5
                                      Agricultural Marketing Service (AMS)                                  6                           6
                                      Forest Service (FS)6                                                286                         299
                                      Animal and Plant Health Inspection
                                       Service (APHIS)                                                     28                           29
                                      Economic Research Service (ERS)                                      69                           71
                                      Foreign Agricultural Service (FAS)                                    2                            2
                                      Grain Inspection, Packers, and
                                       Stockyards Administration (GIPSA)                                     5                           7
                                      National Agricultural Statistics
                                       Service (NASS)                                                        5                           5

                                      Totals                                                           $2,047                      $2,122

                                   In addition to complying with the OSTP Policy, agencies continue to be
                                   responsible for reporting all known or suspected violations of law or
                                   regulations, misconduct, and other irregular activities in USDA programs or
                                   by USDA employees to the Office of Inspector General (OIG).

Objectives                         The purpose of our audit was to determine whether: (1) the Department had
                                   finalized and implemented a Department-wide, OSTP-compliant policy
                                   addressing research misconduct or had monitored its agencies to ensure that
                                   their individual policies complied with the OSTP Policy, and (2) the
                                   Department had ensured that agencies provided guidance to and oversight of
                                   the extramural research institutions as directed by the OSTP Policy.




4
    ARS, the Department’s largest in-house research agency, leads the Department’s agricultural research effort and conducts research
    related to nutrition, technology, the environment, and other topics that affect Americans on a daily basis.
5
    The CSREES awards the largest amount of funding to extramural research programs at universities and other institutions.
6
    According to its Internet website, the FS is the largest forestry research organization in the world, providing technical and financial
    assistance to State and private forestry agencies.
    USDA/OIG-A/50099-11-Hy                                                                                                              2
Findings and Recommendations
Section 1. Departmental Oversight



Finding 1             USDA Has Not Complied With the Federal OSTP Research
                      Misconduct Policy

                      USDA did not comply with the OSTP Policy that required the Department to
                      develop a research misconduct policy and provide a coordinated oversight
                      process to consistently and effectively implement it. A Department-wide
                      policy was to be in place by December 6, 2001. Instead, USDA agencies
                      relied on individual practices, many of which fell short of OSTP
                      requirements, to deal with research misconduct. When CSREES staff
                      became aware of the OSTP Policy, they attempted to establish a unified effort
                      between USDA research agencies and drafted a policy that they believed
                      could be used Department-wide. Lacking Department-level support, these
                      efforts ceased and no specific USDA agency or group was assigned
                      responsibility to implement the proposed policies. At the time of our review
                      and after interviewing representatives from several agencies, we did not
                      identify any formal Department-wide coordinated effort to bring the
                      Department into compliance.

                      The Department does not have procedures in place to guide researchers, who
                      know of or are concerned about potential research misconduct allegations, in
                      reporting allegations. The Department does not have Department-wide
                      procedures in place for research misconduct to consistently and effectively
                      handle allegations.     In addition, the Department cannot ensure that
                      researchers are fully aware of their responsibility to protect the integrity of
                      USDA-funded research.

                      To comply with the OSTP requirements, a Department-wide policy must:
                      define research misconduct in terms of fabrication, falsification, or
                      plagiarism; establish the elements of a research misconduct finding; provide
                      instructions for handling research misconduct allegations and adjudication,
                      including standards for objectivity and timeliness; provide safeguards for
                      informants and subjects of allegations; and address possible administrative
                      actions for research misconduct findings.

                      No Department-wide OSTP-Compliant Policy

                   The Department did not implement a coordinated oversight process to bring
                   the USDA into compliance with the OSTP Policy. The Department did not
                   issue any guidelines about what constitutes research misconduct and what to
                   do when misconduct is suspected or known. Additionally, the Department
                   did not ensure that individual agency policies satisfy OSTP requirements.
USDA/OIG-A/50099-11-Hy                                                                       3
                                  In the absence of a Department-wide policy, we considered whether
                                  individual agencies have OSTP-compliant research misconduct policies. We
                                  examined nine USDA agencies that perform or fund research. The FS7 had
                                  an OSTP-compliant policy, implemented through an interim directive.8 ARS
                                  had a policy that did not include critical oversight components for extramural
                                  USDA-funded projects. None of the remaining seven agencies had research
                                  misconduct policies:

                                                                                                   OSTP-Compliant
                                     Agency                                                         Agency Policy
                                     ARS                                                                 Inadequate
                                     CSREES                                                                 None
                                     AMS                                                                    None
                                     FS                                                                     Yes
                                     APHIS                                                                  None
                                     ERS                                                                    None
                                     FAS                                                                    None
                                     GIPSA                                                                  None
                                     NASS                                                                   None

                                  Lack of Extramural Research Misconduct Oversight

                                  OSTP Policy requires research misconduct policies and procedures to address
                                  oversight of extramural research.         Agencies have ultimate oversight
                                  responsibilities for federally funded research. The Department does not have
                                  a Department-wide research misconduct policy or a policy that addresses
                                  extramural research misconduct. Additionally, eight agencies do not have
                                  individual policies to address allegations and investigations at extramural
                                  institutions. See Section 2 for further details.

                                  Early Implementation Efforts Abandoned

                                  Representatives from several USDA research agencies (AMS, ARS, APHIS,
                                  CSREES, ERS, FS, and NASS), as well as from the OIG and USDA’s Office
                                  of the General Counsel (OGC), met to discuss a Department-wide research
                                  misconduct policy to comply with the OSTP Policy. Staff from CSREES
                                  informally assumed the group leadership role to develop a Department-wide
                                  policy. In December 2001, the group prepared a draft policy and submitted it
                                  to USDA agency representatives and the OGC for comment.

                                  OGC responded on May 15, 2002, that the draft policy statement replicated
                                  the OSTP Policy’s general guidelines. In lieu of issuing the draft, OGC
                                  recommended that the informal interagency group (cited above) develop a
7
    Although FS has an OSTP-compliant policy in place, we were unable to judge its effectiveness because FS did not provide any
    research misconduct reports for our review. An FS official stated that the agency had received no reports of research misconduct.
8
    FS Interim Directive No: 4080-2002-2, Research Administration Scientific Ethics, was approved February 8, 2002, and expired
    August 12, 2003. In response to questions raised during our audit, the FS reissued the Interim Directive for an additional 18 months
    effective July 21, 2004.
    USDA/OIG-A/50099-11-Hy                                                                                                           4
                  decision memorandum for the Secretary outlining USDA’s options for
                  implementing the OSTP Policy, including OGC’s proposal that USDA
                  agencies adopt their own policies.

                  OGC prepared a draft Secretary’s memorandum and provided it to the
                  informal interagency group. The draft memorandum directed agencies,
                  including those with no written research misconduct guidance, to review their
                  own regulations and policies to determine whether amendments or revisions
                  were needed to comply with the OSTP Policy. In addition, the draft
                  memorandum directed agencies to evaluate whether they could: (1) develop
                  their own, specific written policies, (2) rely on the published OSTP Policy
                  and guidance to achieve compliance, or (3) follow written policies of other
                  USDA agencies.

                  Lacking formal Departmental direction and support, the interagency group
                  took no action to develop the recommended decision memorandum, nor did it
                  circulate the draft Secretary’s Memorandum for approval. After the group
                  received OGC’s recommendations, its efforts to bring USDA into compliance
                  with the OSTP Policy waned and a Department-wide policy remains to be
                  completed.

                  We concluded that, while it is conceivable that individual agencies could
                  establish separate policies to comply with the OSTP guidelines, this approach
                  would result in unnecessary duplication of effort by many agencies. To
                  ensure effective, consistent, and OSTP-compliant handling of research
                  misconduct issues, the Department needs to develop and implement a
                  Department-wide research misconduct policy.

Recommendation No. 1

                  Coordinate and develop a Department-wide, OSTP-compliant research
                  misconduct policy. Include specific guidelines as provided in Section 2,
                  Recommendations No. 4 and 5.

                  Departmental Response. USDA concurs with the recommendation.
                  Research, Education and Economics (REE) will serve as the coordinating body
                  for research misconduct within the Department and will assign responsibility
                  within the Office of the Undersecretary to be accountable for coordinating
                  research misconduct policies and procedures. Within 3 months of acceptance of
                  these management decisions, REE will publish a FR notice, which accepts the
                  OSTP definition of research misconduct as the USDA definition. CSREES will
                  take the lead on preparing and publishing the FR notice.

                  OIG Position. We accept the management decision. For acceptance of
                  final action, provide the Office of the Chief Financial Officer, Planning and
                  Accountability Division (OCFO/PAD), a copy of the FR notice and highlight
USDA/OIG-A/50099-11-Hy                                                                      5
                  the acceptance of the OSTP definition of research misconduct as the USDA
                  definition.

Recommendation No. 2

                  Coordinate and develop an effective management oversight process for
                  agency implementation of the Department-wide OSTP-compliant research
                  misconduct policy.

                  Departmental Response. USDA concurs with the recommendation for a
                  centralized body to coordinate OSTP-compliant research misconduct policies.
                  REE will have general oversight and serve as the coordinating body for research
                  misconduct for USDA. Language within the Federal Register announcement
                  will include a statement that the USDA will follow the OSTP Federal Policy to
                  define the responsibility of USDA agencies in designing and implementing
                  guidelines for fair and timely procedures and for taking agency administrative
                  actions as they relate to research misconduct. REE will be responsible to ensure
                  that each agency has conformed to OSTP guidance and that among agencies
                  there is, to the extent practical, consistent policies and procedures, particularly
                  for extramural research.

                  Implementation of the Federal Policy will be the responsibility of each
                  USDA agency, which, if not already in place, will develop, announce and
                  execute procedures appropriate to its own organizational structure within
                  nine months of the above-mentioned Federal Register announcement.

                  OIG Position. We concur with the intent of the proposed actions. To reach
                  management decision, please provide OIG with clarification of whether the
                  language in the Federal Register notice (Recommendation No. 1) will include
                  the USDA policy defining the responsibility of USDA agencies in designing
                  and implementing guidelines for fair and timely procedures and for taking
                  agency administrative actions as they relate to research misconduct.
                  Additionally, provide the date when the agencies’ actions should be completed.
                  If this language will not be included in the Federal Register, please clarify
                  whether language will be included in the Federal Register indicating that
                  directives will be issued by REE to define the responsibility of USDA agencies
                  to design and implement guidelines for fair and timely procedures and for
                  taking agency administrative actions as they relate to research misconduct.
                  Please provide OIG with a time when the directives will be issued and a time
                  when agency actions should be completed.

                  Also, please provide OIG with clarification of whether the language in the
                  Federal Register notice (Recommendation No. 1) will include a description of
                  how REE will provide oversight to ensure that agencies implement OSTP-
                  compliant procedures or whether language will be included in the Federal
                  Register indicating that directives will be issued to define REE’s process to
USDA/OIG-A/50099-11-Hy                                                                            6
                  ensure that agencies implement OSTP-compliant procedures. If directives
                  will be issued, please provide OIG with a time when the directives will be
                  issued.




USDA/OIG-A/50099-11-Hy                                                                   7
Section 2. Extramural Research


Finding 2                       USDA Has No Guidelines to Identify and Resolve Extramural
                                Research Misconduct Allegations

                                The Department did not establish an OSTP-compliant research misconduct
                                policy that addresses extramural research misconduct allegations. As such,
                                the Department does not have adequate assurance that extramural research
                                misconduct allegations are identified, that proceedings are thorough and
                                objective, and that Department and public interests are adequately protected.

                                Each year, USDA awards millions of research dollars to universities and
                                other institutions. USDA agencies do not review extramural research
                                misconduct policies as part of the funding application process in order to
                                determine an institution’s ability to address research misconduct allegations.
                                We found that policies outlining USDA oversight of extramural institutions
                                involving research activities are virtually nonexistent.

                                According to the OSTP Policy, Federal agencies have ultimate oversight
                                authority for federally funded research, while institutions bear primary
                                responsibility to detect and investigate research misconduct. However,
                                agencies may proceed with their own inquiries or investigations at any time,
                                such as when the agency determines that the institution is not prepared to
                                handle an allegation in a manner consistent with the OSTP Policy, or when
                                agency involvement is necessary to protect the public’s interests.

                                The Department does not have a research misconduct policy that addresses
                                allegations and investigations at extramural institutions. Eight agencies did
                                not have research misconduct policies that address allegations and
                                investigations: seven of the eight agencies did not have research misconduct
                                policies at all, and ARS’ research misconduct policy did not include critical
                                oversight components for extramural institutions. Only the FS policy, as
                                implemented through an interim directive, was OSTP-compliant.

                                Inconsistent Misconduct Oversight

                                Existing Department policies vary, with the result that similar situations may
                                be treated very differently, depending upon which USDA agency is funding
                                research.

                                On June 10, 2003, ARS added a sentence to its research misconduct policy to
                                address extramural research. The expanded policy9 states, “ARS policies and
                                procedures are applicable only if the institution does not have established

9
    Research Misconduct, Number 129.0 – ARS, June 10, 2003.
    USDA/OIG-A/50099-11-Hy                                                                                 8
                  policies and procedures regarding research misconduct.” However, the
                  policy does not require ARS to assess an extramural institution’s research
                  misconduct policy to determine if it is adequate. ARS may find itself in the
                  position of relying on an extramural institution’s policy that may not be in the
                  Department’s best interests or may not be compliant with OSTP Policy.

                  In contrast, FS policy directly addresses the capability of an institution to deal
                  with research misconduct. As a result, a situation may be treated in a vastly
                  different manner by the FS than the way the same situation would be handled
                  by ARS. For example, the FS interim directive calls for allegations of
                  scientific misconduct to be handled in accordance with a well-defined five
                  step process. The general FS policy is for the cooperating research institution
                  to bear primary responsibility for the prevention and detection of research
                  misconduct and for the inquiry, investigation, and adjudication of research
                  misconduct alleged to have occurred in association with their own institution.
                  However, the FS policy allows the FS to proceed with its own inquiry or
                  investigation. Circumstances when the FS may elect not to defer to the
                  research institution may include, but are not limited to the following:

                  -   The FS determines that the institution is not prepared to handle the
                      allegation in a manner consistent with the published Federal policy
                      (65 FR 76260-76264, dated December 6, 2000) [the OSTP policy];
                  -   FS involvement is needed to protect the public interest, including public
                      health and safety; or
                  -   The allegation involves an entity of sufficiently small size (or an
                      individual) that the entity cannot reasonably conduct the investigation
                      itself.

                  Additionally, the FS interim directive explains that, after reviewing the
                  record of the investigation, the institution’s recommendations to the
                  institution’s adjudicating official, and any corrective actions taken by the
                  research institution, the responsible FS Station Director will take additional
                  oversight or investigative steps, if necessary. Upon completion of the review,
                  the FS Station Director will take appropriate administrative action in
                  accordance with applicable laws, FS and USDA regulations, and policies.
                  When the FS Station Director has made a final determination, she/he will
                  notify the subject of the allegation of the outcome and inform the research
                  institution regarding the Director’s disposition of the case. The FS finding of
                  research misconduct and the FS administrative actions can be appealed
                  pursuant to applicable agency procedures.

                  The differences in these two policies illustrate the variation in how research
                  misconduct allegations could be handled within the Department. By not
                  developing a Department-wide policy, the USDA is vulnerable to criticism
                  due to the inconsistent approaches each agency takes to process allegations.

USDA/OIG-A/50099-11-Hy                                                                           9
                                  Oversight of Extramural Research Misconduct

                                  An incident involving a $750,000 CSREES award to Michigan State
                                  University (MSU) highlights the need for a policy to address extramural
                                  research misconduct. A graduate student involved in a study of the bacterium
                                  that causes pneumonia in young pigs10 fabricated results during 2 years of the
                                  study and subsequently staged a burglary in an attempt to conceal the
                                  misconduct. An MSU investigation eventually revealed that the student’s
                                  research was fraudulent, as it was all based on the supposed mutation of a
                                  specific gene - an alteration that never actually occurred. In August 2003, the
                                  graduate student pled guilty to making false statements and mail fraud. He
                                  was sentenced to 10 months in prison and ordered to repay $69,000 in
                                  restitution to USDA.

                                  CSREES did not have a research misconduct policy or dedicated staff to
                                  independently review MSU’s research misconduct policies. Consequently,
                                  CSREES has been relying on MSU’s adjudication of the allegation. MSU
                                  efforts may not fully review institutional practices and recommend any
                                  needed improvements in the control environment, which allowed the
                                  fraudulent research to proceed undetected for at least 2 years. Also, MSU
                                  efforts are not expected to include an assessment of other USDA-funded
                                  research conducted by the researcher under investigation at the institution to
                                  determine whether the case represents an isolated integrity problem or a
                                  pattern of abuse.

                                  Discussions with USDA agency officials led us to conclude that most USDA
                                  agencies that fund extramural research were not prepared to review research
                                  misconduct policies at extramural institutions. Agencies are responsible to
                                  examine extramural institution research misconduct policies and procedures,
                                  and determine an institution’s ability to adequately resolve research
                                  misconduct allegations. Given the difficulties inherent in establishing a
                                  review process in nine different agencies (some with very small budgets), the
                                  Department should designate a central contact to coordinate performance of
                                  the reviews.

                                  Resolution of Extramural Research Misconduct Findings

                                  Due to the lack of a Department-wide, OSTP-compliant policy for extramural
                                  research misconduct, USDA agencies do not have a method to pursue
                                  restitution initiatives that are in the Department’s and public’s best interests.

                                  The MSU case demonstrates that the USDA needs to include guidelines for
                                  recapturing funds in the administrative actions portion of its Department-
                                  wide research misconduct policy. Without such guidance, it is unclear how

10
     Actinobacillus pleuropneumoniae
 USDA/OIG-A/50099-11-Hy                                                                                        10
                  CSREES will resolve the financial aspects of the MSU situation. The
                  $69,000 restitution due from the graduate student represents only a small
                  portion of USDA’s investment in the project. While CSREES has frozen
                  additional funds, it has not attempted to recover the rest of the money already
                  expended on the fraudulent research.

                  Identification of Extramural Research Misconduct Allegations

                  Due to the lack of a Department-wide, OSTP-compliant policy for extramural
                  research misconduct, universities and other research institutions do not
                  always report credible allegations to USDA. Consequently, the Department
                  does not have: (1) a valid way to know the extent to which fabrication,
                  falsification, and plagiarism affect USDA extramural research, or (2) an
                  opportunity to participate in the research misconduct investigations and
                  adjudications.

                  The OSTP Policy requires extramural institutions to notify Federal agencies
                  of a research misconduct allegation if the allegation meets the Federal
                  definition of research misconduct, and if the institution’s inquiry into the
                  allegation yields sufficient evidence to proceed to an investigation.

                  In January 2000, the University of Connecticut (UConn) submitted a funding
                  application to CSREES. Before CSREES processed the application, UConn
                  became aware of an allegation that the application included falsified data.
                  After convening a special review board to investigate the matter, UConn
                  concluded that one of the principal researchers had engaged in research
                  misconduct, and the university withdrew the application from funding
                  consideration. In its finding, the UConn board wrote, “USDA regulations do
                  not require that grantees report alleged misconduct related to proposal
                  submission.” Because neither a CSREES nor a Department-wide research
                  misconduct policy existed, the UConn board consulted ARS’ research
                  misconduct policy to make its determination. While the ARS policy did not
                  apply to other agencies, the board determined that ARS grantees were not
                  required to report research misconduct allegations. Consequently, UConn did
                  not notify CSREES of the incident.

                  While this case was resolved before CSREES obligated funds, it highlights
                  the need to require extramural institutions to report all misconduct allegations
                  to the funding agency. In light of UConn’s nondisclosure, the Department
                  did not participate in the investigation and adjudication process. However,
                  the Department of Health and Human Services (DHHS), to which UConn had
                  submitted related applications, did assign its Office of Research Integrity,
                  Public Health Service (PHS) to analyze the case as part of an oversight
                  review. PHS agreed with the UConn board’s research misconduct finding
                  and further concluded that the fabricated material could have misled funding
                  reviewers and the scientific community about the related research.
USDA/OIG-A/50099-11-Hy                                                                        11
                   Ultimately, the accused researcher voluntarily agreed for a period of 5 years:
                   (1) that he would be excluded from serving in any advisory capacity to PHS,
                   (2) that any institution that submits a grant application to PHS involving the
                   researcher’s participation must include a plan for supervising his duties, and
                   (3) that any employing institution must certify that data provided by the
                   researcher is based on actual experiments or legitimately derived. The
                   researcher was not similarly limited from participating in USDA-funded
                   activities.

Recommendation No. 3

                   Assign a specific person or group to be accountable for overseeing
                   extramural institution research misconduct policies and procedures, to
                   include the objective of determining the institution’s ability to adequately
                   resolve research misconduct allegations.

                   Departmental Response. REE will assign a person to coordinate research
                   misconduct across the USDA for both intramural and extramural research. All
                   USDA research organizations will announce their policies for adequately
                   resolving research misconduct allegations.

                   OIG Position. We concur with the intent of the proposed actions. To
                   reach management decision, please provide details of who will be assigned to
                   coordinate oversight of intramural and extramural research misconduct, as
                   well as the planned date for the assignment.

                   Additionally, please provide OIG with clarification of how the designated
                   person will ensure that all USDA research organizations have announced their
                   policies for adequately resolving research misconduct allegations and how, if
                   misconduct allegations arise, the person will monitor and determine the
                   institution’s ability to adequately resolve research misconduct allegations. If
                   this information will not be included in the Federal Register notice
                   (Recommendation No. 1), please clarify whether directives will be issued to
                   define how the designated person will ensure that all USDA research
                   organizations have announced their policies for adequately resolving research
                   misconduct allegations and how, if misconduct allegations arise, the person will
                   monitor and determine the institution’s ability to adequately resolve research
                   misconduct allegations, and provide OIG with a time when the directives will
                   be issued.

Recommendation No. 4

                   Require extramural research institutions to report all allegations of research
                   misconduct involving USDA funded projects to the USDA. Include this
                   requirement in the Department-wide policy described in Recommendation
                   No. 1.
 USDA/OIG-A/50099-11-Hy                                                                        12
                  Departmental Response. USDA concurs with the recommendation and
                  will include this recommendation in the general guidelines specified in the
                  response to Recommendations Nos. 1 and 2. Within 3 months of acceptance of
                  management decision, REE will publish a Federal Register notice incorporating
                  the general guidelines requiring extramural research institutions to report all
                  allegations of research misconduct involving USDA-funded project to USDA.

                  OIG Position. We accept the management decision. For acceptance of
                  final action, provide the OCFO/PAD a copy of the Federal Register notice.

Recommendation No. 5

                  Develop and implement extramural guidelines for USDA agency oversight
                  and involvement in the investigation, adjudication, and recapture of funds
                  when it is in the best interests of the Department and public. Include this
                  requirement in the Department-wide policy described in Recommendation
                  No. 1.

                  Departmental Response. USDA concurs with the recommendation.
                  USDA will develop general guidance for the investigation of research
                  misconduct allegations.

                  OIG Position. We concur with the intent of the proposed actions. To reach
                  management decision, please provide details of how the Department will
                  provide guidance for investigation and adjudication and a date when the
                  direction will be issued.

                  In addition, please provide OIG with clarification of whether the cost recovery
                  language in the management response will be included in the Federal Register
                  notice (Recommendation No. 1) or whether specific language will be included
                  in each agency’s guidelines that should be completed 9 months after the Federal
                  Register notice.




USDA/OIG-A/50099-11-Hy                                                                       13
Scope and Methodology
                  Our audit was conducted between October 2002 and September 2003. We
                  updated the results as needed to reflect current conditions. We performed
                  fieldwork at the headquarters offices of ARS, CSREES, and FS; conducted
                  telephone interviews with APHIS and ERS staff; and reviewed
                  correspondence regarding AMS research misconduct. For FAS, GIPSA and
                  NASS, we made telephone inquiries, and reviewed information available on
                  the Internet, and other documentation.

                  We judgmentally selected ARS, CSREES, and FS for review based on their
                  roles in a research misconduct policy implementation meeting held in
                  August 2001. We selected AMS, APHIS, ERS, FAS, GIPSA, and NASS for
                  review based on their research funding as reported in the USDA Budget
                  Authority by Appropriation for Research, Development, and Education.

                  We reviewed the Federal OSTP Research Misconduct Policy to gain an
                  understanding of its requirements. We interviewed agency officials and
                  analyzed documentation and records to determine the status of the
                  Department’s research misconduct policy and the reasons the policy had not
                  been implemented.

                  We interviewed agency officials and analyzed documentation to determine
                  whether individual agency research misconduct policies and procedures that
                  agencies relied upon complied with the OSTP Policy. We also obtained and
                  reviewed research misconduct allegations from 1998 through April 2003 to
                  determine whether selected agencies properly reported matters to OIG or
                  handled them according to the OSTP Policy (for allegations occurring after
                  December 6, 2001).

                  The audit was conducted in accordance with generally accepted Government
                  auditing standards.




USDA/OIG-A/50099-11-Hy                                                                  14
Exhibit A –         Departmental Response from the Research, Education and
                    Economics
                                                         Exhibit A - Page 1 of 5




USDA/OIG-A/50099-11-Hy                                                       15
                                                                              Exhibit A– Page 2 of 5




            Response to Office of Inspector General Audit Report (No. SOO99-11-Hy) on
         "Implementation of the Federal Research Misconduct Policy in the U.S. Department
                                           of Agriculture"


        General comments:

        The USDA has carefully read and evaluated the audit report. It should be noted that
        research misconduct in the USDA, whether in intramural laboratories or through Federal
        assistance grants made to outside entities, is rare. This rarity does not diminish the need to
        develop more uniform and consistent policies to deal with and manage misconduct cases
        that do arise and to implement the OSTP guidelines. Thus, the recommendations of the
        report are important in advancing the Department's ability to effectively and consistently
        manage these cases and meet Federal requirements. However, the rarity of such cases and
        the unique circumstances from which these cases may arise in various USDA agencies
        with distinct and independent administrative procedures also means centralized
        infrastructural changes created to deal with research misconduct at the Department level
        likely would be cost-prohibitive and counter productive. While oversight and coordination
        should be centralized, procedures for the investigation and adjudication of cases should be
        vested to the Agency which is responsible for administration of the research award under
        which the misconduct arose.

        In addition, the audit report implies that the OSTP guidelines only pertain to extramural
        research. In fact, the OSTP guidelines state " the term 'research institution' is defined to
        include all organizations using Federal funds for research, including, for example, colleges
        and universities, intramural Federal research laboratories, Federally funded research
        development centers, national user facilities, industrial laboratories, or other research
        institutions... agency policies and procedures with regard to intramural as well as
        extramural programs must conform to the policy described in this document." Thus,
        within our USDA response, both intramural and extramural research is discussed to
        promote conformity with the OSTP guidelines throughout the USDA.

        Recommendation No.1

               Coordinate and develop a department-wide, OSTP-compliant research misconduct
               policy. Include specific guidelines as provided in Section 2, Recommendation Nos.
               4 and 5.

                     Agency Response:

                     The USDA agrees with this recommendation that a Department-wide
                     research misconduct policy that is compliant with OSTP guidelines be
                     developed.



USDA/OIG-A/50099-11-Hy                                                                            16
                                                                                  Exhibit A– Page 3 of 5



                                                                                                          2

                           1. REE will serve as the coordinating body for research misconduct within the
                              Department and will assign a specific person or group within the Office of
                              the Undersecretary to be accountable for coordinating research misconduct
                              policies and procedures.

                           2. Within 3 months of acceptance of these management decisions, REE will
                              publish a Federal Register notice which accepts the OSTP definition of
                              research misconduct as the USDA definition. CSREES will take the lead on
                              preparation and publication of the Federal Register notice.

Recommendation No.2

      Coordinate and develop an effective management oversight process for agency implementation of the
      Department-wide OSTP-compliant research misconduct policy.

                        Agency Response:

                           The USDA agrees with the concept of a centralized body for coordinating
                           OSTP-compliant research misconduct policies across the Agency.

                           1. REE will have general oversight and serve as the coordinating body for
                              research misconduct within the Department. As such, USDA research
                              agencies will report all research misconduct cases to the REE Office of the
                              Undersecretary for oversight.

                           2. Within the Federal Register announcement cited above, language will be
                              included stating that USDA will follow the OSTP Federal Policy to define
                              the responsibility of USDA agencies in designing and implementing
                              guidelines for fair and timely procedures and for taking agency
                              administrative actions as they relate to research misconduct. Such
                              generalities will include a statement that: 1) Federal agencies have ultimate
                              oversight authority for Federally funded research, but research institutions
                              bear primary responsibility for prevention and detection of research
                              misconduct, and for the inquiry, investigation, and adjudication of allegation
                              of research misconduct; 2) identifies the multiple phases of an investigation;
                              and 3) describes the policy to separate the adjudication and investigation
                              phases.

                               Implementation of the Federal Policy will be the responsibility of each
                               USDA agency, which, if not already in place, will develop, announce and
                               execute procedures appropriate to its own organizational structure within
                               9 months of the above-mentioned Federal Register announcement.


USDA/OIG-A/50099-11-Hy                                                                                  17
                                                                                      Exhibit A– Page 4 of 5


                                                                                                              3


                         3. When formulating USDA agency research misconduct policies and procedures,
                            the agencies will consult with REE. REE will be responsible to ensure that each
                            agency has conformed to OSTP guidance and that among agencies there is, to
                            the extent practical, consistent policies and procedures, particularly for
                            extramural research where non-Federal entities must be subjected to equitable
                            treatment through standardized procedures across the USDA.

                         4. Some USDA agencies may adopt procedures and guidelines developed by other
                            USDA agencies or seek assistance from larger agencies with more expertise in
                            the administration of research misconduct actions.


Recommendation No.3

      Assign a specific person or group to be accountable for overseeing extramural institution research
      misconduct policies and procedures, to include the objective of determining the institution's ability to
      adequately resolve research misconduct allegations.

                         Agency Response:

                         As stated in the response to Recommendation No. 1, REE will assign a person to
                         coordinate research misconduct across the USDA for both intramural and extramural
                         research. All USDA research organizations will announce their policies for
                         adequately resolving research misconduct allegations. The USDA will not embark
                         on a separate and centralized exercise to determine that all institutions have the
                         ability to adequately resolve research misconduct allegations because of the
                         impracticality of doing so. Instead, the USDA will rely on institutional assurances
                         until such time as a research misconduct allegation arises. Federal assistance policies
                         require that institutions assure that procedures are in place to investigate research
                         misconduct allegations as part of the terms and conditions for accepting an award
                         (see the Federal Demonstration Partnership National Policy Requirements. At
                         http://thefdp.org) The USDA, like other Federal granting agencies, does not require
                         separate submission of assurances, only the agreement that such assurances are in
                         place by way of signature at the time of application submission and through
                         acceptance of award terms and conditions.




USDA/OIG-A/50099-11-Hy                                                                                      18
                                                                            Exhibit A– Page 5 of 5


                                                                                                 4

Recommendation No.4

     Require extramural research institutions to report all allegations of research misconduct
     involving USDA-funded projects to the USDA. Include this requirement in the Department-
     wide policy described in Recommendation No. 1.

                      Agency Response:

                      The USDA agrees with this comment and will put this requirement in its
                      general guidelines as in recommendation 1 and 2. Agencies supporting
                      extramural research will provide contact information for reporting research
                      misconduct in terms and conditions applied to awards, and intramural
                      agencies will announce, through standard means to its employees, how
                      research misconduct should be reported.

Recommendation No.5

     Develop and implement extramural guidelines for USDA agency oversight and involvement in
     the investigation, adjudication, recapture of funds when it is in the best interests of the
     Department and public. Include this requirement in the Department-wide policy described in
     Recommendation No. 1.

                      Agency Response:

                      As stated in each of the other recommendations, USDA will develop general
                      guidance for the investigation of research misconduct allegations. If the
                      resulting investigation determines the fraudulent or inappropriate use of
                      USDA funds, the USDA will use its well established policies for recovering
                      funds where necessary. The OSTP guidelines do not include guidance as to
                      cost recovery and state simply that an agency take appropriate administration
                      action in accordance with applicable laws or regulations. In announcing its
                      implementation guidance, each USDA agency will state that recovery of
                      funds, where appropriate, is one of a number of potential administrative
                      actions that could result from a proven case of research misconduct.




USDA/OIG-A/50099-11-Hy                                                                         19
